State of New Jersey

PHILIP D. MURPHY

OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF LAW AND PUBLIC SAFETY
DIVISION OF LAW

Governor

SHEILA Y. OLIVER

25 MARKET STREET

Lt. Governor

PO Box 112

TRENTON, NJ 08625-0112

GURBIR S. GREWAL
Attorney General

MICHELLE L. MILLER
Director

April 21, 2021
VIA ELECTRONIC FILING
Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

PDX North, Inc. et al. v. Asaro-Angelo, No.: 20-1327

Dear Mr. Harris:
Respondent, Commissioner Robert Asaro-Angelo, writes to request a one week extension
to file a response to the petition for certiorari in the above-captioned matter. See Sup. Ct. R. 30.4.
The petition was filed on March 19, 2021. Respondent filed a timely waiver on April 22, 2021.
On May 5, 2021, this Court requested a response to the petition. After being granted one 30-day
extension of time, the response to the petition is currently due on or before July 6, 2021. An
extension of time of one week to file a response will create a new due date of July 13, 2021.
Petitioner has consented to this request.
This is Respondent’s second request for an extension, which is necessary to ensure that
Respondent can review and provide a thorough and appropriate response to the petition because
of the assigned attorneys’ respective obligations to manage heavy caseloads.
We thank you in advance for your consideration of this request.
Respectfully submitted,
GURBIR S. GREWAL
ATTORNEY GENERAL OF NEW JERSEY

cc:

Corinne McCann Trainor, Esq. (via electronic filing)

HUGHES JUSTICE COMPLEX • TELEPHONE: (609) 376-2960 • FAX: (609) 633-7494
New Jersey Is An Equal Opportunity Employer • Printed on Recycled Paper and Recyclable

